No:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2019

GARRY GRACE,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

DECLARATION VERIFYING TIMELY FILING.

Petitioner, Garry Grace, through undersigned counsel and pursuant to SUP.
Cr. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari-
filed in the above-styled matter was sent in an envelope via third party commercial
carrier for delivery within three days, addressed to the Clerk of the Supreme Court
of the United States, on the 30th day of July, 2020, which is timely pursuant to the
rules of this Court.

MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER

Fort Lauderdale, Florida By:__s/Robin J. Farnsworth

July 30, 2020 Robin J. Farnsworth
Assistant Federal Public Defender
1 East Broward Blvd. Suite 1100
Fort Lauderdale, Florida 33301-1100
Telephone No. (954) 356-7436
